Nos. 19-368 and 19-369
INTHE

~upreme Qtourt of tbe mlniteb ~tates
FORD MOTOR COMPANY,

Petitioner,

v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT,
FORD MOTOR COMPANY,

et al., Respondents.

Petitioner,

V.

ADAM BANDEMER,

Respondent.

On Petitions for Writs of Certiorari
to the Supreme Court of Montana
and the Supreme Court of Minnesota
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5 that I have, this 21st day of October,
2019, served three copies of the Brief for the Alliance of Automobile Manufacturers
as Amicus Curiae in Support of Petitioner upon each party separately represented
in this proceeding by causing them to be deposited with the United States Postal
Service, with first-class postage prepaid, addressed to counsel of record at the
addresses listed below:
Sean Marotta
Hogan Lovells US LLP
555 Thirteenth Street, N. W.
Washington DC 20004
Sean.marotta@hoganlovells.com

Counsel of Record for Ford Motor Company

Deepak Gupta
Gupta Wessler PLLC
1900 L Street, N.W.
Suite 312
Washington, DC 20036
deepak@guptawessler.com

Counsel of Record for Charles Lucero, personal representative of the Estate of
Markkaya Jean Gullett
Kyle Wayne Farrar
Kastler Lynch Farrar & Ball LLP
125 NE First Avenue
Suite 3
Ocala, FL 34470

Counsel of Record for Adam Bandemer
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

aime~
Goodwin Procter LLP
901 New York Ave., NW
Washington, DC 20001
jsantos@goodwinlaw.com
(202) 346-4000

Counsel for Amicus Curiae

October 21, 2019

2

